HHS/OIG, Audit -"Review of North Carolinas Medicaid Upper-Payment-Limit Calculations for
Non-State Government and Private Hospitals,"(A-04-03-02028)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of
North Carolinas Medicaid Upper-Payment-Limit Calculations for Non-State Government and Private Hospitals," (A-04-03-02028)
August 1, 2005
Complete
Text of Report is available in PDF format (560 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether North Carolina: (1) calculated the UPLs for non-State government
and private outpatient and inpatient hospitals in accordance with Federal regulations and the approved
State plan amendments and (2) properly included UPL payments in the calculation of hospital-specific
disproportionate share hospital limits.  We found that North Carolina did not comply with its
State plan amendment for calculation of the State fiscal year 2003 hospital inpatient UPL payments.  As
a result, the State made unallowable payments of about $42 million ($26 million Federal share) in the
first 9 months of State fiscal year 2003.  Also, North Carolina did not include UPL payments in
its calculation of hospital-specific disproportionate share hospital limits.  As of the end of
our audit period, no disproportionate share hospital overpayment had occurred; however, if the State
had made payments up to the improperly calculated disproportionate share hospital limits at any time
during the remainder of the State fiscal year, an overpayment of at least $42 million would have occurred.
We recommended that North Carolina:  (1) make future estimated inpatient UPL payments based
on a UPL properly computed using Medicaid costs incurred instead of charges converted to costs, (2)
revise its calculation of hospital-specific disproportionate share hospital limits to include properly
computed UPL payments, and (3) resolve with CMS all outstanding issues affecting the final cost settlements
and, upon resolution, perform annual final cost settlements and refund the Federal share of any UPL
and disproportionate share hospital overpayments.  In response to the draft report, the State
said that, regarding our third recommendation, any action must await the conclusion of discussions
with CMS to resolve technical and legal issues.  Based on the States comments, we modified this
recommendation.